                               NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230




    OFFICE OF                            April 2 1,2000
INSPECTOR GENERAL



  TO:               The File


  FROM:             SAW
  SUBJECT:          Case Closeout, #I-990 10004


  1.                 s opened on based on informatio



       history exhibit in China.

  2. On April 3,2000, in the Superior Court of California, County of Los Angeles

       e
     certifi d his guilty plea of Grand Theft by Embezzlement, Penal Code Section w
              was sentenced to 3 years felony probation, ordered to perform 200 hours of
     community service, and to make restitution in the amount of $5000.

  3. On April 17,2000, based on this investigation, the National Science Foundation
     Inspector General recommended to the Dir ctor, National Science Foundation that
     debarment proceedings be initiated agains
                                                  9     for a period of 3 years.
  4. This investigation is closed
                                     Investigative Report for
                               OIG Investigation Number I99010004                                  '1
                                                                                                             I


                                               Introduction
                                                                                                             '
            The National Science Foundation (NSF) is an independent federal agency created in 1950
     to support research and education activities in science and engineering. Annually, NSF provides
     approximately $4 billion to support nearly 20,000 awards. An important component of NSF's
     science education effort is informal science education, which focuses on promoting science             li
     education for school-aged children. The Informal Science Education program has an annual
     budget of approximately $36 million.                                                 I1

             The ;                                   -                     , received a $1.6 million
     award fkom NSFYsInformal science ducati ion program in April 1998. The Museum, under the
     significant NSF award, was developing an exhibit entitled the "Lost ~ihlizationsof de Tarirn
     Basin." This was to be a 6000 sq. ft. traveling exhibit that would introduce visitors to the
     extraordinary archaeological discoveries that have recently been made in the " * -
     in the Xinjiang Uyghur Autonomous Region of the People's Republic of China. In addition, the-
     Museum was to develop 1) an on-line presentation that would include "virtual" elemedts of the
     archaeology sites and materials, 2) teacher enhancement activities, 3) curriculum materials for
     older elementary and secondary students, and a menu of non-formal lectures, classes, and a

a-   symposium. The exhibit was expected to reach between 750,000 and 1,500,000 people.
                                                                                              /I

             This NSF award to the Museum was affected by the illegal actions of two of its Principal
     Investigators,                                     --- ---,the curators entrusted with public funds
     and with maintaining the integrity of the grant.             --            incorporated a competing
     foundation, the -            -                    in direct opposition to the Museum's cokict-of-
     interests policy, a policy which is required under federal regulations for institutions receiving
     federal funds.                             actions, as described in this investigative report, have
     jeopardized and delayed the $1.6 million award from NSF. As a result of their improder
     activities and associations, the Museum terminatec           --- - ~mploymentand
     consulting relationship and removed them from the project. Now, not only must the Museum
     locate and then hire a competent scholar to lead the project, but according to one of the subjects,
                 -le delicate M e w o r k of negotiations with Chinese officials may not surviJe the
     change in curators. In addition, much of the work completed b-                               must be
     repeated as Museum personnel are unable to locate materials and books pertinent to the project
     and are unabie to identify objects and artifacts in photographs collected during trips to China. In
     order to proceed with the project, the Museum will be required to pay salaries and expend  / other
     substantial funds on work already completed. The collateral damage caused by the subjects
     greatly overshadows the core fiaud documented in this report.
                                                                          NSF-OIGInvestinative Report 199010004
                                                                                                          Y




                                         Alleped Violations of Law

    18 USC§ 666 Theft or bribery concerning program receiving Federalfunds
            The evidence collected during the investigation indicates that                                                    r
    former employee of the                                     -,- iuseum, knowingly and
    intentionally embezzled or obtained by fkaud funds of approximately $13,083 from an.
    organization, the Museum, that received benefits in excess of $10,000 under a ~ e d e r dprogram
                                                                                             l
    involving grants h m the National Science Foundation, a federally designated entity.'
/                                                                                                                            ti


    18 USC Jr 3 71 Conspiracy to commit a violation of 18 USC § 666

          The evidence developed during the investigation indicates thar            '-
                                                                                                -    /I       and
                        conspired to d e b u d the - - - -
    fundkg in excess of $5,000. The Museum was defrauded of app~oximately$13,683.

    Attachment 3 contains a listing of other possible violations of Federal statutes.
                                                                                                     )I



                                                     Subiects

                      - -                  -                                                        I
    Date of Birth           i
    Social Security Number:
    Background:                                                                                                          I

                      curriculum vitae, which he provided to his employer upon hire, th
                                                        ,and again to the National Science Foundation
           ( N ~ Fin
                   ) a gr&t proposal, sho& that in 1989 he graduated with distinction fibm the
           University of California, Los Angeles with a Ph.D. in the Archaeology Program.
                      vitae also indicates that he had seven consecutive quarters of full-time intensive
           training in Chinese at the Stanford Language Institute (Taida University campus, Taipei,
           Taiwan:.              curriculum vitae shows that he has extensive experience with the
           Chinese language and has acted as an interpreter and translator (Attachment 4).
           was a co-Principal Investigator and co-curator on the NSF award to the ~ u s e h .



    Date of Birth:


      The National Science Foundation provided funding to thc                                          in the
    amounts of $889,000, $585,000 and $52.000 in 1997,1998, and 1999 respectively (See ~ttachment2 for cash         I,

    transactions report and abstracts of the awards to the Museum).
1

         .                                                                          NSF-OZG Imestinative ~    e&
                                                                                                                   I

                                                                                                                        199010004
4
                                                                                                                                             I
         Social Security Numbebe
    @"   Background:
                                                                                                                                             I
                                                                                                                                             I
                                          born in Urumchi China and came to the United States in 1989. The
                  U.S.Immigration and Naturalization Service granted              permanent resident alien
                  status on September 22, 19P'                 Luriculum vitae, which he filed with NSF as
                  part of the grant proposal, shows that he has a Ph.D. In addition.          :istslrlanguage
                                                                                                   i
                  proficiencies in English, Chinese, Uyghur, Uzbek, Turkish, German, and several   I  dead
                  language:             3urrently works                         an edi'              was a CO-     Ii
                  Principal Investigator and co-curator on the NSF award to the Museum. (Attachment 5).




                 In January 1999, the Office of Inspector General (OIG) for the National Science
         Foundation (NSF) received information fiom tl..
         (Museum) that subject - ---              i had submitted a~proximatel~  $600 of falsified travel
         receipts for reimbursement fiom an NSF award for a 1998 trip to china?              S V a ~co-
         Principal Investigator and co-curator on the award. Museum officials indicated that &ey had
         also discovered other falsified travel receipts totaling approximately $2,200 that      I .lad
         submitted with his travel voucher for a 1997 trip to China. The trip was a reconnaisdnce trip in
         connection to the project described in the NSF proposal.


    *             - . ---   ,a Senior Accountant at the Museum, identified several altered receipts fiom
                   1998 expense claim r e p o d Museum personnel askt

         Chinese. ' - tiscovered thar
         expense claims.
                                                                               - o audit
                                                 dubmitted falsified receipts in connection with his
                                                                                                     997
         travel expense claims and supporting documentation since the receipts are written primarily in
                                                                                                                                        11




                 Museum personnel requested that              provide a written response to the allegations
         that he had submitted false receipts. In a written response to the Museum regarding thL problem
         receipts fiom the 1998 trip to China,          attributes the discrepancy with the receijts tc -
                         's family fiiend who served as a Chinese expediter4for                       indicates
         that           would often make purchases at             ;request.          states, "All of these
         aforemenconed receipts he would group together and we would settle with at a later date."'
                                                                                                                                    I


                                                                                                                                    'I
                 The Museum contactec'                   a forensic document examiner, and provided her
         with 42 questioned receipts submitted by          and 75 documents known to be           s. In a
         letter dated January 26, 1999 tc                    1, Chief Deputy Director of the Museum,

                  ;oncluded, regarding the written numbers and English words, that "with a reaionable

           The award, number ---
                                                                                                               i
                                              started on March f , 1998, and scheduled to expire on approximately February 28,
         2001, was for approxh ~tely$1.6 million and entitled "Lost Civilizations of the Tarim Basin - A raveli in^ Natural
         --.                                         Mibit." (Attachment 6)
                     was born in ~ h k in a 1952 &d came to the United States in 1983.           speaks and writes fluent
         Chinese.
          A tenn used by Museum personnel to describe a person who facilitates the trip in China by intervening on behalf
,        of the group with local officials and business people.
         '~etterto                                                  dated January 14, 1999 (Attachment 7).                          I
                                                                                                                                    I
                                                                       4               NSF-OIG Invest iaative Re~orf199010004


            degree of technical certainty, that it is a high probability that the writings and numbers on the                               11


            Standards and Questioned Documents were authored by the same person."6 The Museum
            concluded that          had falsified the documents. As a result of its investigation, the Museum
            terminated           employment on January 22,1999.'

                    The OIG investigation determined that          submitted approximately $10,583 in
            questionable receipts for the 1997 trip to China and approximately $2,500 in questiondble
                                                                                                  I/
            receipts for the 1998 trip to China.


                                                        Investipative F i n d i n ~ s
        I



                       On or -about October 23,1997,                  filed an expense claim report with the                            1
                                                   Museum for $21,660.66 to reconcile                       -
            funds spent during the 1997 trip to china.' Approximately $10,583 of the claimed expenses
            consisted of questionable receipts that were altered, fabricated, scavengedg,misrepresented or
            otherwise false. Of the receipts, approximately $2,368 were altered, approximately $61638 were
            fabricated, approximately $849 were misrepresented, approximately $305 were scavenged, and
            approximately $423 used false conversion rates as shown in the table in Attachment 10
            was given a cash advance of $21,650 prior to his departure            's expense claim <eport
            showed that the Museum owed him $10.66. He waived reimbursement for this amount.lo

    I
                    In addition, on or about December 2,1998                      filed an expense claim                                I
            report with the Museum for $9,337.73 to reconcile federal funds fkom a NSF grant spent during
@           the 1998 trip to china." Approximately $2,500 of the claimed expenses consisted of
            questionable receipts that were altered, fabricated, scavenged, misrepresented or otherwise false.
            Of the receipts, approximately $1,122 were altered, approximately $883 were fabricated,
            approximately $266 were misrepresented, and approximately $229 were scavenged, as shown in
            Attachment   12. The Museum gavc            .A cash advance of $9,320 prior to his dep&e.
            --
                      expense claim report showed that the Museum owed him $17.64.12                                I
                  All together, for the 1997 and 1998 trips to China          ,ubmitted approxiniately
            $13,083 in fdse or questionable receipts to the Museum to reconcile his expense claim reports.



            6
              Letter tc                                     .s dated January 26, 1999 (Attachment 8 which also includes         ,
            file).
            7
                          employment termination letter dated January 22, 1999 (Attachment 9).
                Travel request to the Museum for                                       .or the 1997 trip to China (Attachment
            11).
              Scavenged receipts may be legitimate receipts on the face, but do not belong to
                                                                                                                   I1
                                                                                                         For example,         nay
            have obtained receipts for other individuals from vendors in addition to his own.
             loTravel request to the Museum fc                                           for the 1997 trip to China (Attachment
            11).
            " Travel request to the Museum for the 1998 trip to China.           nas issued a Museum credit card for the 1998
;           trip to use for major expenses (Attachment 13).
            l2Travel request to the Museum for the 1998 trip to China (Attachment 13).                                              I
                                                          5               NSF-OIG Investiaative Re~ort199010004


                      conspired to submitfalse receiptsfor reimbursementfor                                ..
 expensesfor the 199 7 trip to China

                                  traveled to China fiom approximately July 7, 1997 to September 4,
 1997 to conduct work on the upcoming "Lost Civilizations of the Tarim Basin: Ancient Indo-
Europeans in the Orient" exhibition at the ~ u s e u ml3. The Museum provided a cash advance to
          of $21,650.00- for
                           -
                             the- -trip.''
                                    -            -                3500.00 for             expenses
during the time --..                       were separated in china.'' Prior to or during the trip,
                        conspired to falsify, forge or otherwise manufacture hotel and meal receipts
for the time            i;pent in China staying with relatives in Urumchi and Beijing. The forged
receipts were intended to cover I-.             per diem.16 Wher                              lmed to
the United States,             mailed his receipts, both legitimate and forged, to
to submit to the Museum as proof of expenditures in China. The total for the receipts dovering
the time                            were separated while in China that              jmitted to
was $3,755.60."               stated in his affidavit that he was only paid $3,500 by
expenses during the 1997 trip to china. l8

        In his travel voucher dated October 23, 1997. --
$8,9 16 in receipts for           expenses, which covered the
                                                              jubrnitted a total of approximately
                                                               time he and
                                                                                        11
                                                                                      were
                                                                                                       i
together and the time they were separated. As part of sworn aflidavits to Special                en{
                    attached marked copies of receipts, or made statements in reference to receipts,
                                                                                           I
that he and            lanufactured, or had manufactured during the time he stayed with relatives
in China. The fabricated receipts thal "          ;ubmitted relating toi           r expens& total
approximately $5,500, which is approximately $2,000 more than               -. paid        1 1n
addition, some of the receipE             ubmitted for              expenses were altered, tampered
with, misr?presented, or otherwise questionable. Although he admitted man~facturing~receipts,
         , -- ,d in his affidavits that he had altered receipts.lg
                                                         - --      Of the approximately $8,916 in
receipt$'      .- ,ubmitted for reconciliation for "            travel expenses, - -      roduced
approximately $6,365 in false or questionable receipts. Of particular interest is a $3,072.10 hotel
receipt dated 08112/97 (Attachment 15) which                mote next to a copy of the receipt as
part of his March 30, 1999 affidavit,          and I made receipt to cover the per diem in
Ununchi" @art of the time he was separated from             --).

                 --     Chief of Exhibits at the Museum, stated in a affidavit to Special Agent
                  ,larch 8, 1999, that aftr                      nad returned fiom China in
1997, he had noticed a discrepancy with -         :hotel receipts because they did not match
                   luestioned         . about          hotel receipts and'         admitted to

l3 Travel request to the Museum for                  r and                 ior the 1997 trip to China (Attachment
 11).
 l4 Travel advance check to          ~atedJuly 3, 1997 (Attachment 14).
 IS
              flidavit March 30,1999 (Attachment 15).
 16
             affidavits dated March 5,1999 and March 30,1999 (Attachment 15).
l7 Undated letter from                     attached to receipts. Documentation obtained fiom Museum personnel
and records. See attachments tc            March 5, 1999 affidavit (Attachment 15).
              larch 30,1999 affidavit (Attachment 15).
15
             .fidavits dated March 5,1999 and March 30, 1999 (Attachment 15).
2(
                             dated March 8,1999 (Attachment 16).
                                                            6                NSF-OIG Irrvestiaative Report I99010004
                                                                                                              I1




              that he knew that --.  nad stayed with relatives in China.      did not re$ort this
        infomatiion to Museum management because he "did not believe we could go back and undo
        what had been done."


            --.wilfilly submittedfalse receipts to cover his expensesfor
            .                                                                       1997 and 1998 trips to
        China                                                                                            ij
                                                                                              --
                 In addition to the false receipts          .ubmitted to reconcile '           expenses for the
        1997 trip to China*            submitted  false receipts for his own expenses  and those  for
        a Chinese expediter, who was to assist on the trip. Of the $10,583 of false receipts -
        submitted for his 1997 trip to China, approximately $4,218 were to cover his expenses and those
        of              \ttachment 10). Of particular interest are a series of meal receipts with serial
        numbers similar to 0143301. Attachment 17 is a photocopy of receipt 0143301, a blahk receipt,
        which Museum personnel discovered, in the presence       - of
                                                                    - Special , '                   lland
        Assistant Inspector General for Investigations                     in a box of materials belonging to
I
                  which he had left at the museum. Within this particular numerical series,
        submitted eleven receipts. These receipts within the series are in further question because they do
        not contain required Chinese tax stamps. In addition, the dates on the receipts are not           .
        chronologically consistent with the numbering of the receipts, i.e. some receipts with larger
        invoice numbers are dated prior to a receipts with lower invoice numbers. Refer to Attachment
         10 for a table of the receipts and copies of the receipts themselves. It appears that
                                                                                                         I
        obtained a series of numbered blank receipts, filled them in with false information, and submitted
        them to the Museum for reconciliation showing his willful intent to deeaud the Museum.

                       :traveled to China fkom August 22,1998 to October 20,1998 to conduct work on
        the "Lost Civilizations of the Tarirn Basin" project funded by NSF. Also - on the trip. Museum
                                                                                                representing
        the Museum at various times were                           . sonsultant;
        Sculptor;           -   ,Museum
                               --    , Editor; _                         -
                                                                        ,Museum Photographer;'
                Museum Photographer;                    ,Museum President; and                  $usem
        Chief of Exhibits. On or about December 2, 1998, -             submitted approximately $2,500 in
        false or questionable receipts for reconciliation. One of the individuals from the 1998 trip,
                 -4useum Sculptor, related during an interview with Special Agent                    nd
        Assistant Inspector General for Inve~tigatio~                    on February 25, 1999, that
        had made comments to him that the receipts were in Chinese, so museum personnel would not be
        able to read them.          also stated that he spent only half of his per diem d m his trip to
        China with the Museum group in 1 9 9 8 . ~ ~                                                 1
    I          eitherjiledfalse receiptsfor book purchases during 1997 and 1998 trips to China, or
              provided a false statement under 18 USC 8 1001 to OZG investigators in response to an
        OIG subpoena byfailing to produce any books
               For both the 1997 and 1998 trips to China.       submitted receipts for books to
        reconcile his travel expense claim reports.       submitted receipts totaling approkimately

                     sterview dated February 25, 1999 (Attachment 18).
$1,606 for books purchased in mainland China during the 1997 and 1998 trips and dirdctly
related to the purposes of the NSF award. Of the $1,606, approximately $137 was for book
purchases attributed tc

         On April 7,1999,           provided to Special Agent                . in response to an
OIG subpoena issued on March 29,1999, two boxes containing 79 books from China for which
he had submitted receipts to the Museum for trips to China in 1997 and 1998.U See Attachment
19 for photographs of the books. When presenting the books to Special Agent            _- Jn April
7, 1999,)         commented that I           should have more books responsive to his subpoena
thar.           OIG served           with a subpoena which required, among other items,
production of the books fiom the 1997 and 1998 trips to china? On April 9,19FQ
provided a response to his OIG subpoena through his attome;) ,,--.            -_      silgned a
                                                                                         I




Statement of Production declaring under the penalty of pe 'ury that he had responded in
complete compliance with the March 29, 1999 subpoena.               2'12
                                                                     did not submit any books in
response to the subpoena. ,-- _     s production of other documents responsive to the subpoena
was very limited. Attachment 2 1 contains the documents           produced responsive to his
subpoena. During an interview on February 25,1999 with Special Agent                       and
Assistant Inspector General                                  Museum Editor, who was on the trip
to China in 1998 with           stated that she saw himhimpurchase
                                                                books at the -..
~useum.~'

         During the investigation, Special Agent                 and Assistant Inspector General
for Investigations    '            discovered, among effects left b j           at the Museum, books
published in China that Museum personnel identified as                  However, the books do not
appear to have been purchased during the 1997 and 1998 trips to China. While                  #as in
China in 1998 his office was being renovated at the Museum. Consequently, his books and
papers were packed into boxes and stored at the Museum.                         , Assistant Chief of
Exhibits, was responsible for packing the boxes. Afier the office renovation was completed,
          mpacked the boxes of books and placed them iri              , office on the shelves. On

March 10,1999, Special Agent                      and Museum Senior Accountant -
packed the books into a box (See Attachment 22 for photographs of the box of books).
catalogued the books that were purchased in China and prepared spreadsheets of the titles and
the prices of the books. The total for the books was equivalent to approximately $189.26 Eight
of the books had inscriptions, with dates in 1994 and 1995, indicating that they were gifts to
        .In July 1995!                   ,Assistant Chief of Exhibits, had traveled to China with
            behalf of the Museum and witnessed              - rchase books during the trip. On
March 10,1999, Special Agent                      showed          the books collected fidm
        - gffice.          stated that the books he saw were consistent with the numb& he saw
       r purchase during the 1995 trip. Museum personnel have been unable to locate! books for
                                                                            -7
the project belonging to '          jther than those catalogued by        -             eider filed
                                                                                                     I1

 "OIG subpoena to                                                                                    1
                               dated March 29, 1999 and Statement of Production dated April 7, 1999 (Attachment
 20).
 23 OIG subpoena to
                                                                                                     i
                               lted March 29,1999 and Statement of Production dated April 9,1999 (Attachment 21).
'2s* OIG subpoena tointerview ~ated March 29, 1999 and Statement of Production dated April 9, 1999 (Attachment 2 1).
                              dated February 25, 1999 (Attachment 26).                               I
26 Soreadsheet of book inventory prepared by               of the Museum (Attachment 23).
27               r interview (Attachment 24).
- --            -. . .


 *
                                                                                                                     H
                                                                                                                     r

                                                                  8                NSF-OIG Investimtive Report 199010004
3
           receipts for books he had not purchased, or he retained books belonging to the Museum essential
           to the NSF project for his personal uses.


                   set up the                               in violation of Museum policy andfederal
           conjlct-ofiinteresls rules and tien used tripspaid for with Los Angeles Countyfunds and
           NSFfunds in pursuit oJ                                  Dbjectives

                   On August 27, 1997, only three months after             md the Museum submitted the
           proposal to NSF for the award, and during the tim                             were in China, the
                        -                         was incorporated in the State of California as a non-profit
       ,   corporation. -       . had arranged f a --              , CPA to complete and file the paperwork.
                  :mission is to conduct archeological &cplorationsand excavations in central China.
           Special Agent                   and Assistant Inspector General for Investigations
           discovered among               documentation   and computer files left at the Museum after his
           termination, information showing that                          are Directors of        In attachment
           to a copy of an Application for Recognition of Exemption under section 501(c)(3) of the Internal
           Revenue Code              includes a section in the "Research Time-Line" stating:
                                                                                                                 I
                                                                                                                 b       .

                             "1997 Preliminary analysis of radar images. Meetings with Xinjiang &d Beijing
                             officials. Survey of nearby roads and modem settlements to obtain ge6referencing
                             data near Dandan Oyliq and Old Cherchen. Securing of funding from
                             government and corporate sources."

                             "1998 First field season at Dandan Oyliq. Site identification, survey, and
                             mapping. Correlation of finds with radar feature^.'"^
                                                                                       --    -   -
                       ---
           The attachment to the IRS form submitted
                              ,, and '
                                         - -         - by--        lists -
                                                            founding directors. The IRS form wsis filed on
           ~ e ~ t e r n b27,1997,
                          er       after       returned fiom his 1997 trip from China. However, (ihe articles
           of incorporation were filed during his bip to China. These documents verify that      1 alarmed
           to conduct bbsiness for       ,and, indeed did conduct business for         China during the 1997
           trip paid for by the Museum. The attachment to the IRS form also shows that            was
           planning to conduct business for        during a 1998 trip to China.

                   In a letter tc                  obtained from             computer at the Museum,
                    describes how he plannei to use the c'Lost Civilizations of the Tarim Basin" supported
           by NSF and the Museum to "highlight and publicize the results of             advance
           reconnaissance surveys and exca~ation."~~   In the same letter,          states, "In planning our
           exhibition [Lost Civilizations], we have worked closely with the Chinese authorities both in
           Urumchi and Beijing. At the same time, in the course of the last five yearc                 and I I
           28 Application for Recognition of Exemption under section 501(c)(3) of the Internal Revenue Code obtained through
           OIG subpoena (Attachment 21).
           29 Letter created on June 1, 1998 obtained from            iomvuter on March 9, 1999 by Special Agent
                    and Assistant Inspector General for Investigations              (Attachment 25).
                                                           9               NSF-OIG Investimive Rwort 1990/0004
                                                                                                       I

                                                                                                       1
    have discussed plans for field surveys and excavations in Xinjiang at length with expeh from
                                               $9
    the    ..-           I             --



    for the
                             -
            In a sworn affidavit
                                 .   ..      _ states, "While we were in China in 1997, while traveling
                                            .--.        4useum,we went to Dunhuang as part of /theLost
    Civilizations project with           ,and . -              When we rented camels onhugust
                                                                    -)-



    15,1997 this was for the trip to hnhuang. -            - J is involved with                this
I   trip to Dunhuang,                          -           were discussing       excavahons.    In
    the same affidavit         i states that      ha; tolg him that he did not want the Museum to
    know about - - - . Even though required by Museum's conflict-of-interests policy, ---er did
    not disclose to the Museum his association with - - -                                 1
                                         failure to disclose and manage affiliations and actions in
     connection with          vere in conflict with Museum policy and the work they were doing in
    connection with the NSF award. The Museum's conflict-of-interests policy is required by
     federal regulation for institutions receiving federal funding.                              ererworking
     on the same or similar projects for the Museum and themselves. Had the Museum known about
                                involvement with           they would have required          i               --

I   to abandon the          reject, or  abandon   working  for the Museum     placing  the project in
    jeopardy.)' While on trips to China, paid for by the Museum,                                 ~onducted
    business related to        and the Museum. It is unclear how much of the trip can be attributed to
    work for the Museum and how much can be attributed to                 but it is clear that       11 and
               used the trips to their personal
                                             -- -benefit and  that had their relationships  and actions  with
           ~ e e disclosed
                 n         to the Museum,                             *.odd not have been allowed to travel
    to China in 1997 and 1998 on Museum and NSF funds.


                         Possible Defenses and Mitiyatinp Circumstances

,
               zhimed dr/enses to the Museum are not supported by the investigation

                     claimed in his response to the Museum that the Chinese expediter, and family
            -- -
    fiiend, - _         was mainly responsible for submission of the forged and falsified receipts.
    However,              explanation is not supported by the information developed during the
    investigation.          was responsible for compiling the receipt books for reconciliation;
    speaks and writes fluent Chinese; the altered figures on many of the receipts match
    handwriting as determined by a forensic document examiner; a blank Chinese receipt within a
    series of other forged receipts
                             --   - was
                                      - . discovered in _
                                                                  Xects at the Museum; anti ,
    co-conspirator.                     ,las admitted that he and          evised a scheme to forg&and
    submit false receipts.


    J           ttspired with        lo submitfalse receipt3for reimbursement, but was only
    attempting to cover his per diem                                                    I
                                                                                                        'I
    3-
                affidavit dated March 30,1999 (Attachment IS).
    " Letter dated May 19,1999 fiom                    Chief Deputy Director for the Museum (Attachment 27).
                                              NATIONAL SCIENCE FOUNDATION
                                                  4201 WILSON BOULEVARD
                                                 ARLINGTON, VIRGINIA 22230




                    OFFICE OF
               INSPECTOR GENERAL



            TO:
                              Director
                        --
            FROM: i'

                                                                                                      i
            SUBJECT: Proposed Debarmenf
                                                                                                      I
            On January 20,2000, the Los Angeles County District Attorney filed a one count felony
            complaint charging                    - rmer employee of the                 -,- ---qn of
        I
            Los Angeles County, with the crime of Grand Theft by Embezzlement. The complaint alleged
            the theft occurred between July 7, 1997, and December 2, 1998, while                   as traveling
            for the Museum to develop the "Lost Civilizations of the Tarim Basin" exhibit.        I        was
            Co-Principal Investigator on NSF Grant No                  , which partially funded thk
            development of this traveling natural history exhibit. As a result of the Co-PI'S conduct, the
B           grantee was unable to continue with the NSF award and volunWy terminated the ahard
            returning a p p m ~ l $1.5
                                     y million to NSF.
                                                                                                     /I
            On April 3, 2000, in the Municipal Court of Womia, Los Angeles Judicial District,
                         did not contest the felony as charged. The court convicted           and sentenced
            him to three years probation. The Court also o r d e d             o perfom 200  hours of
                                                               - --.. __ ,                 -          -
            community service; make restitution to the                                               -    A n

            the mun of $5,000.00; and pay a mtitution fine of $210.OU.                           I)




            Based on the criminal conviction ot                ~e recommend that you, in your capacity as
    I
            NSF's debarment official, initiate action to prohibit ,- .--_- _ from receiving fedehl assistance
            (through grants or cooperative agreements) from any soulre, for a period of tbree years.
            Debarment will prevent                iom receiving additional grants, and will also restrict his
                                                                                                  I
            ability to work under another PI'S award.

            Please let,us h o w what actions you will take in this matter.                       I


                                                                                               (I
                             1. Felony Complaint dated January 20, 2000
                             2. L.A. County District Attorney News Release dated January 20,2000
                             3. Certified Plea1Sentenci.g Order dated April 6,2000            '1
